Tlntiefr States (ftaurt of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted October 22, 2020
Decided October 30, 2020
Before
DIANE S. SYKES, Chief Judge
AMY J. ST. EVE, Circuit Judge

No. 19-3438
PAUL SMITH,
Petitioner-Appellant,

v.
TERI KENNEDY,
Respondent-Appellee.

Appeal from the United States District
Court for the Northern District of
Illinois, Eastern Division.
No. 19 C 27
Thomas M. Durkin,

Judge.
ORDER

Paul Smith has filed a notice of appeal from the denial of his 28 U.S.C. § 2254
petition and a request for a certificate of appealability. We have reviewed the final order
of the district court and the record on appeal. We find no substantial showing of the
denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, we DENY the request for a certificate of appealability and DENY
Smith's motion for appointed counsel.

Case: l:19-cv-00027 Document #: 24 Filed: 11/25/19 Page 1 of 7 PagelD #:199

United States District Court
for the

Northern District of Illinois
Eastern Division

Paul Smith, B64568,
Petitioner,

No. 19 C 0027
Judge Thomas M. Durkin

v.
Teri Kennedy, Warden,
Pontiac Correctional Center,
Respondent.

Memorandum Opinion and Order
Pro se petitioner Paul Smith seeks a writ of habeas corpus. The Warden moved
to dismiss Smith’s petition as untimely [R. 12]. For the following reasons, the
Warden’s motion is granted and the Court declines to issue a certificate of
appealability.
Background
In 2008, Smith was convicted in Illinois state court of aggravated battery with
a firearm and being an armed habitual criminal. R. 1 at 1. Smith was sentenced to
60 total years in prison. Id. The appellate court affirmed Smith’s convictions on June
4, 2010 and Smith did not file a petition for leave to appeal (PLA). Id. at 4.1

1 Smith asserts that the appellate court affirmed his conviction on August 11, 2010.
The correct date is June 4, 2010. See People v. Smith, No. 3-08-0408 (Ill. App. Ct.
2010). As discussed later, this discrepancy does not change the outcome of the
Warden’s motion to dismiss.

Case: l:19-cv-00027 Document#: 24 Filed: 11/25/19 Page 2 of 7 PagelD #:200

On December 6, 2010, Smith filed a petition for post-conviction relief.2 The trial
court dismissed Smith’s petition in 2014, and the appellate court affirmed on June 7,
2016. Id. at 3. Smith did not file a PLA. Id.
Smith also filed three petitions for relief from judgment while his post­
conviction petition remained pending. He filed the first petition on October 16, 2014,
which he then withdrew on November 17, 2014. See R.12-3 at 2; R. 12-2 at 36. He
filed the second petition on February 13, 2015, which the trial court dismissed on
February 27, 2015. R. 20 at 5. Smith filed the third petition on November 17, 2015,
which the trial court dismissed because the appeal of his second relief-from-judgment
petition was still pending. R. 12-2 at 39. Smith voluntarily dismissed the third
petition on February 3, 2016. R.12-4 at 1. The appellate court affirmed dismissal of
the second petition on September 14, 2017, concluding that Smith failed to properly
serve the State. Id.] People u. Smith, 84 N.E.3d 591, 595 (Ill. App. Ct. 2017).
On July 25, 2016, Smith filed a motion for leave to file a successive post­
conviction petition. R. 20 at 5. The trial court denied Smith’s motion and the appellate
court affirmed. The Illinois Supreme Court denied Smith’s PLA on November 28,
2018, and Smith’s motion for reconsideration was denied on February 15, 2019. Id at
6.
Smith filed his habeas petition on January 2, 2019. Smith’s petition appears to
include the following claims: (1) the State’s knowing use of perjured grand jury

2 The parties dispute whether Smith filed the petition on December 6, 2010 or
December 9, 2010. The discrepancy does not change the outcome of the Warden’s
motion, and the Court uses Smith’s date here.
2

Case: l:19-cv-00027 Document#: 24 Filed: 11/25/19 Page 3 of 7 PagelD #:201

testimony; (2) the trial court’s restriction of Smith’s ability to cross-examine a state
witness; (3) ineffective assistance of counsel during various stages of his state court
proceedings; (4) the State’s failure to give notice that it intended to seek an enhanced
sentence; and (5) the trial court’s improper consideration of a prior conviction that
did not exist during sentencing. R. 1 at 4-7; R. 20 at 10-11.
Analysis
I.

Untimely Filing of Habeas Petition
The Anti-Terrorism and Effective Death Penalty Act of 1996 (AEDPA) requires

a state prisoner seeking federal habeas corpus relief to file his petition within one
year after “the date on which the judgment became final by the conclusion of direct
review or the expiration of the time for seeking such review.” 28 U.S.C. §
2244(d)(1)(A).3 The statute also provides that “the time during which a properly filed
application for State post-conviction or other collateral review with respect to the
pertinent judgment or claim is pending” shall not be counted toward the one-year
limitations period. 28 U.S.C. § 2244(d)(2); see also Wilson v. Battles, 302 F.3d 745,
747 (7th Cir. 2002). State law determines whether an application is pending for
habeas purposes. Wilson 302 F.3d at 747.
Smith’s conviction became final on July 9, 2010, 35 days after he chose not to
file a PLA with the Illinois Supreme Court. See Ill. Sup. Ct. R. 315 (providing for a
35-day deadline to file a PLA). The limitations period subsequently ran for 149 days
until December 6, 2010, when Smith filed his petition for post-conviction relief.

3 28 U.S.C. § 2244(d)(l)’s other subsections do not apply here.
3

Case: l:19-cv-00027 Document #: 24 Filed: 11/25/19 Page 4 of 7 PagelD #:202

Smith’s post-conviction petition tolled the statute of limitations until July 12, 2016,
the last day he could have filed a PLA after the appellate court affirmed the trial
court’s dismissal (which he did not do). The limitations period began running again
on July 13, 2016 and expired 216 days later on February 14, 2017. Smith did not file
his habeas petition until January 2, 2019, 687 days after the permitted statutory
period.
Smith contends that the appellate court affirmed his conviction on August 11
2010 (the date the mandate issued), not June 4, 2010 (the date the decision was
entered). As an initial matter, “a judgment of an Illinois court of review is final on the
day on which it is entered and not the date that the mandate issues.” United States
ex rel. Mueller u. Lemke, 20 F. Supp. 3d 659, 665 (N.D. Ill. 2014) (citing Wilson, 302
F.3d at 747). But even accepting Smith’s later date, his habeas petition would still
fall outside the permitted statutory filing period by more than a year. Accordingly,
Smith’s habeas petition is untimely.
Smith’s other collateral actions do not change this result. Smith filed and
withdrew his first and third petitions for relief from judgment while his petition for
post-conviction relief remained pending, and thus they did not affect the already
tolled limitations period. Smith’s second petition similarly did not toll the limitations
period because it was improperly filed. See People v. Smith, 84 N.E.3d at 595
(affirming dismissal of Smith’s petition on jurisdictional grounds and vacating trial
court’s findings on the merits because Smith did not properly serve the State);
Freeman v. Page, 208 F.3d 572, 576 (7th Cir. 2000) (“If [state courts] considered the

4

Case: l:19-cv-00027 Document #: 24 Filed: 11/25/19 Page 5 of 7 PagelD #:203

claim on the merits, it was properly filed; if they dismissed it for procedural flaws
such as untimeliness, then it was not properly filed.”). Nor did Smith’s unsuccessful
motion for leave to file a successive post-conviction petition stop the clock. See
Martinez v. Jones, 556 F.3d 637, 638-39 (7th Cir. 2009) (“we have clearly held that
where state law requires pre-filing authorization—such as an application for
permission to file a successive petition—simply taking steps to fulfill this
requirement does not toll the statute of limitations. Instead the second petition tolls
the limitations period only if the state court grants permission to file it.”) (internal
citations omitted). And to the extent Smith’s habeas petition relies on the state court’s
denial of his motion for leave to file a successive post-conviction petition, that claim
is not cognizable under 28 U.S.C. § 2254. See U.S. ex rel. Topps v. Chandler, 2013 WL
1283812, *6-7 (N.D. Ill. Mar. 26, 2013) (“[Petitioner’s] claims arising from his
successive post-conviction proceedings fail because they are not cognizable under 28
U.S.C. § 2254.”). Therefore, absent equitable tolling, Smith’s habeas petition is
untimely.
II.

Equitable Tolling
To qualify for equitable tolling, Smith bears the burden of showing: “(1) that

he has been pursuing his rights diligently, and (2) that some extraordinary
circumstance stood in his way.” Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005).
“Equitable tolling is granted sparingly” only when “extraordinary circumstances far
beyond the litigant’s control . . . prevented timely filing.” Wilson, 302 F.3d at 749

5

Case: l:19-cv-00027 Document #: 24 Filed: 11/25/19 Page 6 of 7 PagelD #:204

(alteration in original) (quoting United States v. Marcello, 212 F.3d 1005, 1010 (7th
Cir. 2000)).
Smith argues that he has diligently pursued his rights but does not point to
any extraordinary circumstance (and the Court discerns none) that prevented him
from timely filing his petition. Although Smith alleges various issues with his counsel
during state-court proceedings, he does not explain why those issues prevented him
from timely filing his federal petition. Indeed, neither Smith’s petition nor his
responses to the Warden’s motion suggest he ever had a conversation with his
attorneys about filing his habeas, and Smith does not explain what prevented him
from filing until nearly two years after the statutory deadline. Generously construed,
it appears that Smith may have believed his unsuccessful motion for leave to file a
successive post-conviction petition tolled the statute of limitations. “Lack of
familiarity with the law, however, is not a circumstance that justifies equitable
tolling.” Taylor v. Michael, 724 F.3d 806, 811 (7th Cir. 2013) (citing Tucker v.
Kingston, 538 F.3d 732, 735 (7th Cir. 2008)). Accordingly, Smith is not entitled to
equitable tolling and his petition is untimely.
III.

Certificate of Appealability
The Court may issue a certificate of appealability “only if the applicant has

made a substantial showing of the denial of a constitutional right.” 28 U.S.C. §
2253(c)(2). When the Court dismisses a petition on procedural grounds, a certificate
of appealability “should issue when the prisoner shows, at least, that jurists of reason
would find it debatable whether the petition states a valid claim of the denial of a

6

Case: l:19-cv-00027 Document #: 24 Filed: 11/25/19 Page 7 of 7 PagelD #:205

constitutional right and that reasonable jurists would find it debatable whether the
district court was correct in its procedural ruling.” U.S. ex rel. Topps v. Chandler,
2013 WL 1283812, at *9 (quoting Slack v. McDaniel, 529 U.S. 473, 485 (2000)).
“Where a plain procedural bar is present and the district court is correct to invoke it
to dispose of the case, a reasonable jurist could not conclude either that the district
court erred in dismissing the petition or that the petitioner should be allowed to
proceed further.” Id. (quoting Slack, 529 U.S. at 484). For the reasons discussed,
Smith’s habeas petition is clearly time-barred. Accordingly, the Court denies
certification of Smith’s claim for appellate review.
Conclusion
For the reasons stated above, the Warden’s motion [12] is granted, Smith’s
habeas petition is dismissed, and the Court declines to issue a certificate of
appealability.
ENTERED:

Honorable Thomas M. Durkin
United States District Judge
Dated: November 25, 2019

7

Hmteit Jifafes Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
December 17, 2020
Before
DIANE S. SYKES, Chief Judge
AMY' J. ST. EVE, Circuit Judge

No. 19-3438.
PAUL SMITH,
Petitioner-Appellant,

Appeal from the United States District
Court for the Northern District of
Illinois, Eastern Division.

v.
No. 19 C 00027
TERI KENNEDY,
Respondent-Appellee.

Thomas M. Durkin,

Judge.

ORDER
On consideration of the petition for rehearing and for rehearing en banc, no judge
in active service requested a vote on the petition for rehearing en banc, and both judges
on the original panel voted to deny rehearing. It is therefore ordered that the petition for
rehearing and for rehearing en banc is DENIED.

Case: 19-3438

Document: 9

Filed: 12/02/2020

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

ORDER
December 2, 2020
By the Court:
PAUL SMITH,
Petitioner - Appellant
No. 19-3438

v.
TERI KENNEDY,
Respondent - Appellee

Originating Case Information:
District Court No: l:19-cv-00027
Northern District of Illinois, Eastern Division
District Judge Thomas M. Durkin
The following is before the Court: PETITION FOR REHEARING ENBANC, filed on
December 1, 2020, by the pro se appellant.
This court has received an untimely petition for rehearing en banc from appellant Paul Smith.
This court construes the petition as a request to recall the mandate and file instanter a petition
for rehearing. So construed, the motion is GRANTED. The clerk of this court shall file
INSTANTER the tendered petition for rehearing.

form name: c7_Order_BTC(form ID: 178)

